Review of PRISM Automated
Procurement System Support
Contracts




                                             September 30, 2010
                                             Report No. 486
 Audit Conducted by Regis & Associates, PC
                                                 UNITED STATES
                              SECURITIES AND EXCHANGE COMMISSION
                                           WASHINGTON, D.C.       20549


      OFFICE OF
IIIISPECTOR GEIllERAl




                                       MEMORANDUM
                                               September 30,2010

              To;           Sharon Sheehan, Associate Executive Director, Office of
                             Administrative Services (OAS)
                            Jeffrey Heslop, Chief Operating Officer (COO), and Acting Chief
                             Information Officer (CIO), Office of Information Technology (OIT)           ,VJ
              From:         H. David Kotz, Inspector General, Office of Inspector   Genera~>V~
              Subject:      Review of PRISM Automated Procurement System Support
                            Contracts, Report No. 486

              This memorandum transmits the U.S. Securities and Exchange Commission
              Office of Inspector General's (OIG) final report detailing the results of our review
              of the PRISM automated procurement system support contracts. This review
              was conducted based on anonymous complaints OIG received regarding
              procurements relating to the management and integration of PRISM.

              The final report contains five recommendations, which if implemented, should
              improve the Commission's programs and operations. OAS concurred with
              recommendations 2, 4, and 5 and non-concurred with recommendation 3. The
              COO/Acting CIO concurred with recommendation 1 which was addressed to OIT.
              Your written response to the draft report is included in its entirety in Appendix V

              Within the next 45 days, please provide the OIG with a written corrective action
              plan that is designed to address the agreed recommendations. The corrective
              action plan should include information such as the responsible official/point of
              contact, time frames for completing the required actions, milestones identifying
              how you will address the recommendations cited in this report.




          Review of PRISM Automated Procurement System Support Contracts            September 30, 2010
          Report No. 486
                                                         i
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our staff and contractors.

Attachment
cc:   Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
      Diego Ruiz, Executive Director, Office of the Executive Director
      David Becker, General Counsel, Office of General Counsel
      Jeffrey Risinger, Associate Executive Director, Office of Human
       Resources
      Kenneth Johnson, Associate Executive Director, Office of
        Financial Management
      Julie Basile, Assistant Director, Office of Administrative Services, Office of
       Acquisitions
      George R. Eckard, Assistant Director, Office of Finance and
       Administration, Office of Information Technology




Review of PRISM Automated Procurement System Support Contracts      September 30, 2010
Report No. 486
                                               ii
Review of PRISM Automated Procurement
System Support Contracts
                             Executive Summary
Background. The Office of Inspector General (OIG) contracted the services of
Regis & Associates, PC (Regis), Independent Public Accountants, to conduct a
review of the contract administration activities related to the Office of Acquisitions
(OA) automated procurement system, PRISM.

The U.S. Securities and Exchange Commission’s (SEC or Commission) Office of
Administrative Services (OAS), OA, is responsible for the agency’s contract and
procurement activities and processes; while the SEC divisions and offices are
responsible for preparing initial procurement requisitions and statements of work.

Over the past several years, OA has unsuccessfully attempted to automate its
procurement function. OA has procured two different automated procurement
systems (APS) to manage acquisitions, the Procurement Desktop System (PDS),
and the Strategic Acquisition Manager (SAM). OA discontinued its use of PDS in
1998, and acquired SAM in 2007. Subsequently, OA discontinued the use of
SAM in March 2008, due to a variety of system performance issues. In
September 2008, the SEC acquired an APS named PRISM. PRISM was
intended to enable OA to accurately track and reconcile SEC’s contracts and
agreements. PRISM, which was implemented on April 21, 2009, and is
commonly referred to as OA’s “contract writing tool,” is a web-based, commercial
off-the-shelf, procurement and contract management system. PRISM provides a
streamlined, end-to-end procurement cycle that integrates and tracks information
from the initiation of a requirement, through its solicitation and award. PRISM
also tracks information on contract administration, contract closeout, and
document archive.

Contract No. SECHQ1-08-C-8239 was awarded to Virtus Consulting Group, Inc.,
(Virtus) on August 12, 2008, to provide project support for the implementation of
PRISM. Task Order No. 0004, under Indefinite Delivery Indefinite Quantity
(IDIQ) No. SECHQ1-07-D-0320, was awarded to another vendor, Delta
Technologies and Solutions, Inc., to perform system coding and technical
services related to the integration of PRISM and Momentum, SEC’s financial
accounting system. The OIG received anonymous complaints regarding the
procurements relating to the management and integration of PRISM. This review
was initiated as a result of those complaints.

Objectives. The overall objectives were to assess the adequacy of the PRISM
award and contract administration activities related to the procurement of PRISM,
and the adequacy of management and implementation of the PRISM project, and
the integration services. The specific objectives of the audit were as follows:
Review of PRISM Automated Procurement System Support Contracts        September 30, 2010
Report No. 486
                                               iii
    •   Identify and review all procurement documentation related to the project
        management and integration support for PRISM;

    •   Determine whether procurements were properly awarded, in accordance
        with Federal Acquisition Regulations and SEC policies and procedures;

    •   Determine the validity of complaints received by the OIG, related to the
        award of the procurement for the management and integration of PRISM;

    •   Determine whether there was adequate oversight of PRISM; and

    •   Review governing Commission policies, guidance, etc., and follow up on
        prior recommendations to ensure they have been closed and corrective
        actions were completed.

Prior OIG Audit Report. OIG Report No. 471, Audit of the Office of Acquisitions’
Procurement and Contract Management Functions, issued September 25, 2009,
contained 10 recommendations to strengthen management controls over OA’s
contracting and procurement functions.

Results. The audit identified several deficiencies related to PRISM contract
administration activities that raise concerns about the future success of the
PRISM project. Specifically, we found that there were repeated requests made
to the Office of Information Technology (OIT) for project management support for
the project. The Associate Executive Director for the OAS advised OIT that the
SAM project manager was unable to give the upcoming APS project adequate
time and attention and that the level of support was insufficient for the project to
be successful. We found that OIT responded that they simply did not have
enough resources to provide the needed project management support.

Further, and notwithstanding the negative experiences in the past and the
complexity of the project, the PRISM project continued for over a year without an
active OIT project manager.

Moreover, we found that competition was improperly restricted by OAS without
following proper Federal Acquisition Regulation (FAR) requirements when it
solicited and awarded a contract for PRISM project support through the insertion
of a condition requiring vendor’s employees have a current (or within the past 30
days) SEC clearance. We found that this condition effectively precluded outside
contractors from bidding on the work. Additionally, email correspondence
between the respective OAS Contracting Officer (CO) and an Office of Financial
Management (OFM) employee indicated that OAS had already pre-selected a
contractor approximately a week before the solicitation was publicized. This
contractor, identified in the CO’s email, was ultimately awarded the contract.



Review of PRISM Automated Procurement System Support Contracts      September 30, 2010
Report No. 486
                                               iv
In addition, we found that there was inadequate segregation of duties in the
management of the PRISM support contract. Specifically, neither a project
manager nor Contracting Officer’s Technical Representative (COTR) was
appointed for the support contract for at least one year. This resulted in the CO
assuming these roles and responsibilities during that period.

Furthermore, we noted that a critical deliverable under the PRISM support
contract did not meet quality standards. The reconciliation tool developed by the
vendor did not appear to accurately classify data between PRISM and
Momentum. This resulted in reconciliation errors which consumed additional
resources to remedy.

Lastly, after we conducted follow-up on prior recommendations in OIG Report
No. 471, Audit of the Office of Acquisitions’ Procurement and Contract
Management Functions, issued on September 25, 2009, relating to strengthening
management controls over the contracting and procurement function, we found
that 8 of the 10 recommendations remain open.

Summary of Recommendations. Specifically, we recommend that OIT review
the adequacy of trained project officers that are available to manage all current
and anticipated projects. If it is determined that sufficient qualified project officers
are not available to manage all current and anticipated projects, OIT should
remedy the situation by either providing an adequate number of qualified
personnel, or implementing an alternative process for ensuring oversight of
projects.

Further, we recommend that OAS:

    (1) Issue guidance to staff on the proper use of restrictive clauses in
        solicitations and the prohibition on pre-selection, and require that
        applicable requirements in the Federal Acquisition Regulations are
        followed.

    (2) Implement internal procedures to limit Contracting Officers from also
        assuming project management and COTR responsibilities on the same
        project.

    (3) Review existing contracts to ensure that COTRs are assigned for each
        contract as appropriate.

    (4) Work in conjunction with OFM to evaluate the reconciliation tool discussed
        in Finding 4 in order to determine, on a cost to benefit basis, whether it
        would be feasible to correct the deficiencies noted.




Review of PRISM Automated Procurement System Support Contracts         September 30, 2010
Report No. 486
                                               v
TABLE OF CONTENTS
Executive Summary ......................................................................................................iii

Table of Contents ........................................................................................................ vi

Background and Objectives
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 2

Findings and Recommendations
     Finding 1: OIT Was Not Actively Involved in Project Management for the
     Implementation of the PRISM Project ................................................................ 4
                  Recommendation 1....................................................................... 6

         Finding 2: Full and Open Competition was Restricted in the Solicitation
         Process .............................................................................................................. 6
                         Recommendation 2....................................................................... 9

         Finding 3: Contracting Officer Performed Project Management and
         Contracting Officer Technical Representative Duties on the Project
         Support Contract .............................................................................................. 10
                      Recommendation 3..................................................................... 12
                      Recommendation 4..................................................................... 12

         Finding 4: Tool to Reconcile PRISM and Momentum Contract Information
         Did Not Meet Quality Standards ....................................................................... 13
                      Recommendation 5..................................................................... 14

Appendices
    Appendix I:              Acronyms. .................................................................................. 15
    Appendix II:             Scope and Methodology ............................................................. 16
    Appendix III:            Criteria ........................................................................................ 18
    Appendix IV:             List of Recommendations .......................................................... 19
    Appendix V:              Management Comments ............................................................ 20
    Appendix VI:             OIG Response to Management’s Comments............................. 29




Review of PRISM Automated Procurement System Support Contracts                                    September 30, 2010
Report No. 486
                                                          vi
                    Background and Objectives

Background
The Office of Administrative Services (OAS), Office of Acquisitions (OA) is
responsible for the U.S. Securities and Exchange Commission (SEC or
Commission) procurement and contract activities and processes, which are
governed by the Federal Acquisition Regulation (FAR). While OA oversees the
procurement responsibilities, the SEC divisions and offices are responsible for
preparing initial procurement requisitions and statements of work. OA consists of
four primary contracting branches, each of which is headed by a Branch Chief.
Each branch is staffed with Contracting Officers, Contract Specialists, and
support personnel.

Over the past several years, OA has unsuccessfully attempted to automate its
procurement function. Initially, OA utilized the Procurement Desktop System
(PDS), but discontinued its use in 1998 after finding that the system was
inadequate to perform necessary procurement functions. OA then acquired the
Strategic Acquisition Manager (SAM) tool 1 to automate the SEC’s acquisition and
procurement process. OA used SAM as its pilot automated procurement system
(APS) from May 2007 to March 2008. OA discontinued using SAM as a result of
the system’s failure to meet its needs and the vendor’s failure to provide trained
system administrators who could fix the system’s problems. OA also
encountered problems with the interfacing between SAM and Momentum 2 when
Momentum would occasionally experience problems and shut down. OAS also
experienced problems with server equipment not being able to handle the
volume of data being sent from Momentum and SAM.

In September 2008, the SEC acquired PRISM, another APS. OA hopes that
PRISM will enable it to more accurately track and reconcile SEC’s contracts and
agreements. PRISM, commonly referred to as OA’s “contract writing tool,” is a
web-based, commercial off-the-shelf, procurement and contract management
system. It provides a streamlined end-to-end procurement cycle that integrates
and tracks information from the initiation of the requirement through solicitation
and award. It also tracks information on contract administration, contract
closeout, and document archive.

The following procurements were issued relative to the acquisition and
integration of PRISM and Momentum:




1
 SAM was a multi-year project that was approved in April 2005 for a total cost of $2,492,371.
2
 Momentum is the SEC’s financial accounting system.
Review of PRISM Automated Procurement System Support Contracts                           September 30, 2010
Report No. 486
                                                    1
    •   PRISM Phase 1, Software and Support Contract (OA Contract Writing
        Tool): Compusearch Software Systems, Inc., SECHQ1-08-F-8240,
        $3,744,582.08, period of performance - September 23, 2008 to present.

    •   PRISM Phase 1, Project Management Contract (Project Support): Virtus
        Consulting Group, Inc. (Virtus), SECHQ1-08-C-8239, $1,239,119.20,
        period of performance - August 12, 2008 to December 10, 2010.

    •   PRISM Phase 2, (Interface) Integration Support Task Order: Delta
        Solutions and Technologies, Inc. (Delta), SECHQ1-07-D-0320 Task Order
        0004, $1,240,061.27, period of performance - February 4, 2009 to July 15,
        2010.

On July 21, 2008, SEC posted a solicitation notice to vendors on
FedBizOpps.gov, to procure project support services for the implementation of an
APS. The solicitation required key contractor employees proposed to work on
the implementation, to have been cleared to work at the SEC within the past 30
days. Although 33 vendors requested the SEC’s Request for Proposal, only one
vendor, Virtus Consulting Group, Inc. (Virtus) submitted a bid. After a review by
a technical evaluation panel, this one offer was accepted, and a contract was
awarded to Virtus, on August 12, 2008, for project support related to the PRISM
implementation in the amount of $600,000.

On January 7, 2009, the SEC’s Project Review Board approved a project related
to the integration of PRISM and Momentum. Subsequently, on February 20,
2009, OAS awarded Task Order 0004 to Delta Solutions and Technologies, Inc.
under Indefinite Delivery Indefinite Quantity (IDIQ) SECHQ1-07-D-0320, in the
initial amount of $586,386 to perform coding and technical services related to the
integration.

The Office of Inspector General (OIG) received anonymous complaints regarding
the procurements relating to the management and integration of the PRISM.
This audit was initiated as a result of those complaints.

Objectives
The overall objectives were to assess the adequacy of the PRISM award and
related contract administration activities and assess the management and
implementation of the PRISM project and the integration services. The specific
objectives were as follows:

    1) Identify and review all procurement documentation related to project
       management and integration support for PRISM;
    2) Determine whether procurements were properly awarded, in accordance
       with Federal Acquisition Regulations and SEC policies and procedures;

Review of PRISM Automated Procurement System Support Contracts    September 30, 2010
Report No. 486
                                               2
    3) Determine the validity of complaints received by the OIG, related to the
       award of the procurements for the management and integration of PRISM;
    4) Determine whether there was adequate oversight of PRISM; and
    5) Review governing Commission policies, guidance, etc., and follow up on
       prior recommendations to ensure that they have been closed, and that
       corrective actions were completed.




Review of PRISM Automated Procurement System Support Contracts   September 30, 2010
Report No. 486
                                               3
               Findings and Recommendations

Finding 1: OIT Was Not Actively Involved in
Project Management for the Implementation
of the PRISM Project
         The Office of Information Technology (OIT) was not actively
         engaged in project management of the PRISM
         implementation and integration project for over a year,
         despite OAS’ request for full-time OIT project management
         support prior to the start of the project. 3

OIT Did Not Adequately Provide Project Management
The Office of Management and Budget (OMB) A-109, Major System Acquisitions,
Section 8- Management Structure, states, in part:

         b. Each agency that acquires -- or is responsible for activities
         leading to the acquisition of -- major systems will establish
         clear lines of authority, responsibility, and accountability for
         management of its major system acquisition programs.

Over the past several years, OA unsuccessfully tried to automate its procurement
function. OAS procured two different APS’s to track acquisitions, PDS and SAM.
After OAS discontinued the use of SAM in March 2008, OAS acquired PRISM in
September 2008. PRISM is a web-based, commercial off-the-shelf procurement
and contract management system that provides a streamlined end-to-end
procurement cycle that integrates and tracks information from the initiation of the
requirement through the solicitation and award process. PRISM also tracks
information on contract administration, contract closeout and document archive.
The scope of the PRISM project not only included implementation of the actual
system, but also included the award of two related contracts for project support
and integration work. 4

Based on lessons learned from the failure of SAM, OAS recognized the necessity
of having a full-time project manager with a strong information technology (IT)
background during the acquisition and implementation of a procurement system.

3
  While OIT did not have resources to assign a full-time project manager, OIT maintains that two
knowledgeable project managers were assigned to assist OA with the IT-related aspects of the initial PRISM
implementation and subsequent initiative to integrate PRISM with Momentum prior to OIT assuming the role
of overall project manager in December 2009.
4
  The PRISM project consists of two distinct phases. Phase 1 was to field the PRISM system in OA as a
contract writing tool. Phase 2, which is still ongoing, is meant to interface PRISM with the Commission’s
financial management system.
Review of PRISM Automated Procurement System Support Contracts                             September 30, 2010
Report No. 486
                                                     4
Therefore, in May 2008, approximately four months prior to acquiring its third
procurement system, the Associate Executive Director (AED) for OAS requested
OIT provide more project management resources for the upcoming PRISM
project.

More specifically, on May 21, 2008 the AED OAS sent an email to the Assistant
Director of Finance and Administration for OIT, indicating that she had made
repeated requests to OIT for project management support for the past two years.
The AED OAS further stated that the SAM project manager was unable to give
the project adequate time and attention and was “spread across too many
projects.” In addition, the AED OAS stated that the current level of support for
the upcoming APS project “simply isn’t enough for a project of this complexity to
be successful.” Moreover, the AED OAS noted that the amount of effort was
considered inadequate when benchmarked against a U.S. Army project that she
procured which was similar in nature and complexity. A similar system
implementation at the U.S. Army involved the full-time efforts of a GS-14 IT
project officer, and two GS-13 IT junior project officers, and did not involve
integration with the U.S. Army’s financial system. The AED OAS stated that OIT
representatives explained on a number of occasions that they simply didn’t have
enough resources to provide the needed project management support. OIT,
however, never formally responded to OAS’ request for more project
management resources for PRISM.

Notwithstanding the negative experiences in the past and the complexity of the
project, the implementation of PRISM (Phase 1) and its integration with
Momentum (Phase 2) commenced and continued for over a year without an
active OIT project manager. In December 2009, OIT senior management
became concerned with the direction of the integration project and as a result, an
individual designated by OIT as the project manager 5 became actively involved
in the project.

Additionally, while OIT maintains that Virtus, a contractor hired by OAS to
perform project support (see Finding 2), was considered to be and functioned as
the project manager for the APS project, the contractor’s contract with the SEC
specifically precluded the contractor from performing program management or
technical implementation. 6 Further, there is no documentation to support the
assertion that OIT complied with the provisions of its own Operating Directive,
OD 24-02.04, IT Project Manager Qualification Standards, dated May 30, 2006,
which requires OIT to demonstrate that vendor project managers performing
project management duties possess appropriate qualifications in accordance with
SEC and OMB guidance. Accordingly, there was a lack of clearly defined lines of


5
  In August 2008, OIT sent an email to OAS stating that an OIT employee would be “listed” as the APS
program manager; however, this individual was not actively involved in the project due to competing
priorities.
6
  Contract No. SECHQ1-08-C-8239, Section C: Description/Specifications/Statement of Work, C.1.0 Scope,
states that “This support does not include program management or technical implementation.”
Review of PRISM Automated Procurement System Support Contracts                           September 30, 2010
Report No. 486
                                                    5
authority, responsibility, and accountability related to project management of
PRISM.

The value of the two PRISM support contracts we reviewed as part of this audit,
doubled since the inception of the contracts. Specifically, SECHQ1-08-C-8239,
Virtus increased from $600,000 to $1,239,119 and SECHQ1-07-D-0320, Task
Order 0004, increased from $586,386 to $1,041,061. Had an OIT project
manager been actively involved in Phases 1 and 2, issues resulting in contract
increases may have been avoided.

The Commission’s apparent lack of sufficient resources to adequately manage
the PRISM project, in our opinion, raises serious concerns about the viability of
the project going forward. The SEC also may have received services that were
not adequate for the purposes for which they were ordered. Moreover, we are
concerned that the problem with lack of project management support with PRISM
may be indicative of a systemic problem with other major IT investments.

        Recommendation 1:

        The Office of Information Technology (OIT) should review the adequacy of
        trained project officers that are available to manage all current and
        anticipated projects. If it is determined that sufficient qualified project
        officers are not available to manage all current and anticipated projects,
        OIT should remedy the situation by either providing an adequate number
        of qualified personnel, or implementing an alternative process for ensuring
        oversight of the projects.

        Management Comments. The COO/Acting CIO concurred with this
        recommendation. See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that the COO/Acting CIO concurred with
        this recommendation.

Finding 2: Full and Open Competition was
Restricted in the Solicitation Process
        OAS issued a solicitation to obtain contractor project support
        for PRISM that included an unusually restrictive condition
        requiring contractor key personnel to have current security
        clearances with the SEC, or be cleared by the SEC within
        the past 30 days.       Additionally, email correspondence
        between the respective OAS Contracting Officer (CO) and
        an Office of Financial Management (OFM) employee
        indicated that OAS had already pre-selected a contractor
        approximately one week before the solicitation was
Review of PRISM Automated Procurement System Support Contracts      September 30, 2010
Report No. 486
                                               6
        publicized. As a result, outside contractor sources were
        effectively precluded from bidding on the contract and full
        and open competition was restricted.

Full and Open Competition was Restricted By a Condition
Added to the Solicitation

Because OIT was unable to provide the project management support OAS
requested in May 2008, OAS decided to obtain contractor project support.
However, in doing so, they issued a solicitation that was unnecessarily restrictive
and effectively precluded competition from outside contractor sources.

The FAR Part 6.101, Full and Open Competition—Policy, states that with
certain limited exceptions, contracting officers shall promote and provide
for full and open competition in soliciting offers (emphasis added) and
awarding Government contracts, and contracting officers shall provide for
full and open competition through use of the competitive procedures that
are best suited to the circumstances of the contract action and consistent
with the need to fulfill the Government’s requirements efficiently.

Additionally, the FAR, Subpart 5.2, Synopses of Proposed Contract
Actions, § 5.207, Preparation and transmittal of synopses, Paragraph c,
requires that notices of proposed contract actions contain a clear and
concise description of the supplies or services that is not unnecessarily
restrictive of competition and will allow a prospective offeror to make an
informed business judgment as to whether a copy of the solicitation should
be requested.

On July 21, 2008, a solicitation for PRISM project support services was
publicized in FedBizOpps.gov, with an August 5, 2008 due date for technical and
price proposals. OAS sought to obtain a contractor to provide project support
with the functional aspects of pre-deployment planning, deployment, and post
deployment for PRISM. 7

Part C.1.1 of the solicitation, Background, stated that “to take advantage of
lessons learned, and to increase our chance of success, the SEC seeks an
experienced and knowledgeable project support contractor to assist with
establishing the procurement requirements and implementing an APS that has
been proven in the Federal Sector. The Contractor shall also be knowledgeable
in SEC systems, especially Momentum Financials and with SEC processes and
workflows, in order to be effective immediately upon award of a contract.”
In addition, Part C.3.0 of the solicitation, Requirements, contained conditions that
vendors were required to meet in order to receive consideration. Specifically, the
solicitation stated that “The Contractor’s employees shall have a current (or
7
 Project support was intended for Phase 1 of PRISM only (fielding the system as a contract writing tool in
OA).
Review of PRISM Automated Procurement System Support Contracts                        September 30, 2010
Report No. 486
                                                    7
within the past 30 days) SEC clearance to minimize the amount of time to be on
site and begin work.” Further, a letter addressed to potential offerors, which was
attached to the solicitation, stated “The SEC invites all offerors who meet the
requirements and constraints of this solicitation to propose, but please seriously
consider not proposing if you have no one who qualifies.”

The solicitation limited competition by excluding vendors who were not currently
cleared to work at the SEC and were not knowledgeable about its systems and
processes. We found that there was substantial interest in the project as 33
vendors contacted OAS to obtain a copy of the combined synopsis and
solicitation publicized on FedBizOpps.gov. However, upon close of the
solicitation on August 5, 2008, only one vendor responded with a proposal likely
because of the conditions in the solicitation, including the requirement that the
contractor’s employees have a current SEC clearance.

Further, we found email correspondence in the contract file, dated July 14, 2008
(seven days before the release of the aforementioned solicitation), containing
improper communications between an OAS CO and a representative from OFM
regarding the potential selection of a then-current SEC contractor to serve as a
project manager for APS. In this July 14, 2008 email, sent by the CO to the OFM
representative, containing the subject line “Procurement system status,” the CO
stated that it may be best to delay a meeting because “we are hiring a project
manager (i.e.,              ) to assist with the acquisition and implementation.
When the PM is hired . . . .” The email further stated, “Right now nothing is
happening on the APS acquisition; I’m trying to prepare the solicitation for the PM
support.” Incredibly, the email identified the name of the contractor that OAS
intended to hire a week before the solicitation was released to the public. This
email, coupled with the extremely restrictive solicitation provision demonstrates
potential evidence of the improper pre-selection of the project manager. In
August 2008, OAS awarded the contract to the contractor specified in the CO’s
July 14, 2008 email.

During an interview Regis held with the AED OAS on July 29, 2010, she
explained the reasoning behind the decision to include the restrictive clause in
the solicitation regarding the security clearance by stating that during the period
the contract was awarded, it took one year, at a minimum, for contractors to
obtain the necessary security clearances at the SEC. The AED OAS also stated
that due to these time requirements, as well as the fact that no in-house project
officers were provided by OIT, the provision requiring current clearances had to
be inserted into the solicitation. In addition, the AED OAS acknowledged that
she reviewed the solicitation and authorized the clause requiring that only
vendors with currently cleared personnel should respond to the solicitation.
However, it should be noted that the contract file did not contain any justifications
for OAS’ decisions.



Review of PRISM Automated Procurement System Support Contracts       September 30, 2010
Report No. 486
                                               8
Subsequently, in August 2010, a personnel security specialist in the SEC’s
Personnel Security Branch informed OIG that although there was a back log of
clearances that needed to be adjudicated in 2008, interim clearances were
granted to individuals coming to work at the SEC who had no criminal record in
seven to ten business days. If a person had a criminal record, it could take an
additional two to three weeks longer to adjudicate the clearance. The personnel
security specialist informed OIG that full clearances were typically granted within
90-days of the initial submission.

We determined that the inclusion of restrictive clauses in the solicitation and the
CO’s July 14, 2008 email correspondence have the appearance that the results
of the bid was predetermined and it was not awarded fairly as was alleged in a
complaint the OIG received. Consequently, these findings raise concerns about
management controls within OAS to ensure adherence to applicable FAR
requirements regarding promoting full and open competition. Additionally, the
Commission may not have received the best value for the services procured.
Further, we found that the original contract was awarded to Virtus on August 12,
2008 in the amount of $600,000, but as a result of six modifications, the contract
amount has more than doubled and is currently valued at $1,239,119. 8
Additionally, we found that the period of performance under the contract was also
extended.

         Recommendation 2 9 :

         The Office of Administrative Services should issue guidance to staff
         on the proper use of restrictive clauses in solicitations and the
         prohibition on pre-selection, and require that applicable
         requirements in the Federal Acquisition Regulations are followed.

         Management Comments. OAS concurred with this
         recommendation. See Appendix V for management’s full
         comments.

         OIG Analysis. We are pleased that OAS concurred with this
         recommendation. We do note that OAS in its response stated that
         they strongly disagreed with the finding that competition was
         restricted inappropriately. The facts of this solicitation are not in
         dispute. A restrictive condition was added to the solicitation for a
         project manager requiring a current SEC clearance that resulted in
         only one vendor submitting a proposal after 33 vendors had

8
  The modifications included additional funding related to internal control support, technical writing and
documentation services, additional project support due to reclassification of PRISM as a mixed financial
system, and data migration services.
9
  The Office of Inspector General is simultaneously issuing a Memorandum Report, referring the evidence
contained in this finding to the Executive Director, Associate Executive Director for Human Resources and
the General Counsel for appropriate disciplinary action for the senior level personnel who were responsible
for the improper pre-selection.
Review of PRISM Automated Procurement System Support Contracts                             September 30, 2010
Report No. 486
                                                     9
        expressed interest in the proposal. This one vendor was identified
        by name in an e-mail as the project manager being hired a week
        before the solicitation was released to the public.

Finding 3: Contracting Officer Performed
Project Management and Contracting Officer
Technical Representative Duties on the
Project Support Contract
        The OAS CO for the project support contract discussed in Finding 2
        also assumed the roles and responsibilities of a project manager
        and Contracting Officer’s Technical Representative (COTR) for
        about one year from the inception of the contract. Additionally, the
        CO approved the first 10 vendor invoices under this contract and
        reviewed and accepted contract deliverables, though it appears this
        individual lacked the technical competence needed to ensure the
        deliverables met the contract requirements.

No COTR or Project Manager Was Initially Appointed to
Manage the Contract
We found that the CO for one of the PRISM support contracts also served
as the COTR and this individual did not appear to have the technical
qualifications or time to fulfill this role. Contract Number SECHQ1-08-C-
8239, was awarded to Virtus to provide project support for the
implementation of PRISM. The respective OAS CO did not appoint a
COTR for this contract from its August 12, 2008 inception to August 17,
2009. The contract, Section G - Contract Administration Data, Subsection
G.1, Appointment of Contracting Officer’s Technical Representative,
stated that a COTR would not be appointed for the award and that the CO
would perform the duties of a COTR such as inspecting, reviewing, and
accepting deliverables and services. However, the deliverables for this
type of contract are of an inherently technical nature and require approval
by an individual with appropriate technical competencies. The
deliverables included an internal controls reconciliation report, disaster
recovery plan, system security plan, privacy analysis worksheet, business
impact analysis, and communication plan.

Based on information gathered in interviews with the CO, we do not
believe this individual possessed the necessary technical competencies or
adequate time to monitor a contract of this complexity and size. The CO’s
knowledge and experience was primarily in procurement administration
and management, while the subject contract required IT requirement
development and project management experience. Additionally, as
Review of PRISM Automated Procurement System Support Contracts     September 30, 2010
Report No. 486
                                              10
discussed in Finding 1, there was a lack of OIT project management for
the overall PRISM project, including at the inception of this contract for
project support.

SEC Regulation 10-15 (November 4, 2004 revision) requires that in order to be
appointed as a COTR, an individual must “possess at the time of the nomination
the technical background, experience necessary, and Federal Acquisition
Certification COTR certification specified in this Directive, and shall be
knowledgeable about the services for which the COTR responsibilities are
assigned.” Furthermore, SEC Regulation 10-15 requires the CO to carefully
consider the complexity and dollar value of the contract and appoint a COTR
based on the results. Contract Number SECHQ1-08-C-8239 was a complex
contract, with a final dollar value in excess of $1.2 million. In addition, a
widespread and standard practice in the implementation of software related
projects is the designation of a project manager, who typically has information
technology experience, as well as project management experience.
Consequently, we believe that OAS’ decision to appoint the CO as the COTR
was contrary to the intent of SEC’s internal policies and procedures, as well as
standard industry practice. Additionally, this put the SEC at risk of accepting
deliverables that may not have been in accordance with the contract or in the
best interest of the project. 10

We also found that the CO approved the first 10 invoices for the subject
contract, though the contract terms and conditions specifically prohibited
the CO from approving invoices. During the period covered by our scope,
20 invoices were received and payments were made to Virtus. These
invoices totaled approximately $1 million, and covered the period October
8, 2008 to May 12, 2010. Of this amount, $578,013 represented
payments on the first 10 invoices that were approved by the CO. Section
G - Contract Administration Data, Subsection G.2, Submission of Invoices,
states that “the CO will not approve invoices.” This contract clause
provides for segregation of duties between the CO and an individual
designated to review invoices, such as the COTR.

Based on discussions with the AED OAS, we were informed that the CO
assumed the roles and responsibilities of a project manager and COTR for
the first year of the contract because of a lack of adequate project
management support from OIT. Finally, in December, 2009, the situation
was remedied when OIT became more actively involved in Phase 2 of the
PRISM project.

As a result of the condition noted above, there is a risk that SEC may have
received services or deliverables that were not adequate for the purposes
for which they were ordered. For example, in Finding 4, we found that a

10
  While OAS maintains that the CO coordinated with subject matter experts in OFM and OIT prior to
accepting deliverables, we found that these efforts were not appropriately documented.
Review of PRISM Automated Procurement System Support Contracts                         September 30, 2010
Report No. 486
                                                  11
reconciliation tool developed by Virtus to reconcile contract information
entered into PRISM and Momentum did not meet contract requirements.

        Recommendation 3:

        To ensure duties are segregated, the Office of Administrative Services
        should implement internal procedures to limit Contracting Officers from
        also assuming project management and Contracting Officer’s Technical
        Representative’s responsibilities on the same project.

        Management Comments. OAS did not concur with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are disappointed that OAS did not concur with
        this recommendation and encourage them to reconsider. We do
        not believe it is disputable that the contracting officer did not posses
        the necessary technical competencies or experience to monitor this
        project and that there was a lack of project management support for
        the project as well. Lack of resources is not an appropriate
        justification for failing to properly manage a multi-million dollar
        project. Segregation of duties is a critical method of ensuring that
        there is accountability and proper management in a project. The
        recommendation that OAS implement procedures to “limit”
        contracting officers (not “restrict” as claimed in the Management
        response) from assuming certain project management duties is a
        prudent and appropriate step to take to ensure that SEC projects
        are managed more efficiently in the future.

        Recommendation 4:

        The Office of Acquisitions should review existing contracts to ensure that
        Contracting Officer’s Technical Representatives are assigned for each
        contract, as appropriate.

        Management Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.




Review of PRISM Automated Procurement System Support Contracts        September 30, 2010
Report No. 486
                                              12
    Finding 4: Tool to Reconcile PRISM and
    Momentum Contract Information Did Not Meet
    Quality Standards
        The reconciliation tool developed by Virtus to reconcile contract
        information entered into PRISM and Momentum did not meet
        contract requirements. This reconciliation tool does not accurately
        classify data between PRISM and Momentum, thus resulting in
        reconciliation errors. Also, the reconciliation errors generated
        require the use of in-house resources to investigate them.

A Critical Deliverable Under the Contract Did Not Meet
Quality Standards

One of the critical deliverables, under Contract Number SECHQ1-08-C-
8239, was a tool to reconcile PRISM and Momentum. This reconciliation
was necessary because PRISM and Momentum have not yet been
integrated, and contract data is being entered into both systems manually.
However, the reconciliation tool does not appear to accurately classify
data between the systems, thus resulting in reconciliation errors.
Specifically, there are differences between the data fields used for
entering information into PRISM and Momentum. These differences are
incorrectly classified as errors on the reconciliation reports, i.e., false
positives.

The Statement of Work for Modification P00001 to Contract Number
SECHQ1-08-C-8239 states, “The Contractor shall provide an accurate,
operational, and reliable reconciliation report that can be run nightly to
reconcile that day’s entries in Momentum Financials and in PRISM. The
report must generate and maintain an error log of discrepancies between
the two extracts.”

We found that the internal logic used in the reconciliation tool was not fully
developed to account for the inherent differences between the data fields
for contract information entered into PRISM and Momentum. As a result,
items, incorrectly classified as errors, have accumulated on the
reconciliation error log, and an inordinate amount of time has been spent
by SEC staff in determining that these items were not actual errors. In
addition, because the reports generated by this reconciliation tool cannot
be completely relied upon, there is currently no assurance that the entries
in Momentum accurately reflect the contracts that were written through
PRISM.



Review of PRISM Automated Procurement System Support Contracts       September 30, 2010
Report No. 486
                                              13
        Recommendation 5:

        The Office of Administrative Services (OAS), in conjunction with the Office
        of Financial Management, should evaluate the reconciliation tool in order
        to determine, on a cost to benefit basis, whether it would be feasible to
        correct the deficiencies noted. OAS should then decide whether the
        corrections should be performed by Commission personnel, or by
        technically competent contractor personnel.

        Managements Comments. OAS concurred with this recommendation.
        See Appendix V for management’s full comments.

        OIG Analysis. We are pleased that OAS concurred with this
        recommendation.




Review of PRISM Automated Procurement System Support Contracts      September 30, 2010
Report No. 486
                                              14
                                                                          Appendix I


                                      Acronyms

AED                             Associate Executive Director
APS                             Automated Procurement System
CO                              Contracting Officer
COTR                            Contracting Officer’s Technical Representative
FAR                             Federal Acquisition Regulations
IDIQ                            Indefinite Delivery Indefinite Quantity
IT                              Information Technology
OA                              Office of Acquisitions
OAS                             Office of Administrative Services
OFM                             Office of Financial Management
OIG                             Office of Inspector General
OIT                             Office of Information Technology
PDS                             Procurement Desktop System
SAM                             Strategic Acquisition Manager
SEC or Commission               U.S. Securities and Exchange Commission




Review of PRISM Automated Procurement System Support Contracts        September 30, 2010
Report No. 486
                                              15
                                                                       Appendix II


                      Scope and Methodology

Scope. We obtained the contract files for Contract Number SECHQ1-08-C-8239
awarded to Virtus, and Task Order 0004 for IDIQ SECHQ1-07-D-0320 awarded
to Delta Solutions and Technologies, Inc. We obtained documentation detailing
the history of the implementation of PRISM; and the progress to date, of the
integration of PRISM and Momentum, such as meeting minutes from the Project
Review Board and the Information Officers’ Council. This information provided
us with an understanding of the implementation process for PRISM and its
integration with Momentum, and identified individuals who were instrumental in
the process. We obtained Obligation History Reports, listing the invoices
received from both Virtus and Delta Solutions and Technologies, Inc., and the
supporting invoices.

We conducted our fieldwork from June 2010 to August 2010. We reviewed
documentation related to the implementation of PRISM, which began in August,
2008, and was completed in April, 2009, and the integration of PRISM and
Momentum, which began in February, 2009 and is still ongoing.

Methodology. To meet the objectives to assess the adequacy of the PRISM
award and contract administration activities related to the procurement of PRISM
and the management and implementation of the PRISM project and integration
services, as well as our other specific objectives Regis:

        •   Identified all of the procurement documentation related to project
            management and integration support for PRISM. We obtained and
            reviewed the contract files for Contract Number SECHQ1-08-C-8239
            awarded to Virtus, and Task Order Number 0004 for IDIQ SECHQ1-
            07-D-0320 awarded to Delta Solutions and Technologies, Inc.
        •   Gained access to documentation detailing the history of the
            implementation of PRISM; and the progress, to date, of the integration
            of PRISM and Momentum.
        •   Reviewed this documentation to gain an understanding of how the
            contracts were awarded, and whether there were any FAR violations.
        •   Obtained a listing of all contractor invoices received from and paid to
            Virtus and Delta Solutions and Technologies, Inc.
        •   Conducted interviews with personnel from OA, OFM, and OIT, who
            were associated with the acquisition or implementation of PRISM, or
            the integration of PRISM and Momentum.
        •   Obtained and reviewed relevant SEC regulations and policies, and
            determined whether there was compliance with these policies.

Internal or Management Controls. Our review of the contract files for the
PRISM and Delta awards included gaining an understanding of internal controls
Review of PRISM Automated Procurement System Support Contracts      September 30, 2010
Report No. 486
                                              16
                                                                    Appendix II

over the contracting process, as required by FAR and by SEC regulations. We
noted whether there was adherence to these controls.

Prior Audit Coverage. Our fieldwork included determining whether
recommendations set forth in OIG Report No. 471, Audit of the Office of
Acquisitions Procurement and Contract Management Functions, September 25,
2009, were implemented.




Review of PRISM Automated Procurement System Support Contracts   September 30, 2010
Report No. 486
                                              17
                                                                     Appendix III


                                         Criteria

Federal Acquisition Regulation. Establishes uniform policies and procedures
for acquisition by all executive agencies. The latest revision became effective on
July 23, 2010.

SEC Regulation 10-15. (Revised November 4, 2004) Discusses roles and
responsibilities of Contracting Officers’ Technical Representatives and Inspection
and Acceptance Officials.

Contract SECHQ1-08-C-8239. Issued August 12, 2008, contains provisions
governing contractor performance, and specifying roles of the SEC Contracting
Officer.

Modification P00001 of Contract SECHQ1-08-C-8239. Issued June 4, 2009,
contains provisions governing contractor performance, and specifying roles of the
SEC Contracting Officer.

OMB Circular A-109, Major System Acquisitions. Establishes policies to be
followed by executive branch agencies in the acquisition of major systems.




Review of PRISM Automated Procurement System Support Contracts     September 30, 2010
Report No. 486
                                              18
                                                                       Appendix IV


                       List of Recommendations

Recommendation 1:

The Office of Information Technology (OIT) should review the adequacy of
trained project officers that are available to manage all current and anticipated
projects. If it is determined that sufficient qualified project officers are not
available to manage all current and anticipated projects, OIT should remedy the
situation by either providing an adequate number of qualified personnel, or
implementing an alternative process for ensuring oversight of the projects.

Recommendation 2:

The Office of Administrative Services should issue guidance to staff on the
proper use of restrictive clauses in solicitations and the prohibition on pre-
selection, and require that applicable requirements in the Federal
Acquisition Regulations are followed.

Recommendation 3:

To ensure duties are segregated, the Office of Administrative Services should
implement internal procedures to limit Contracting Officers from also assuming
project management and Contracting Officer’s Technical Representative’s
responsibilities on the same project.

Recommendation 4:

The Office of Acquisitions should review existing contracts to ensure that
Contracting Officer’s Technical Representatives are assigned for each contract,
as appropriate.

Recommendation 5:

The Office of Administrative Services (OAS), in conjunction with the Office of
Financial Management, should evaluate the reconciliation tool in order to
determine, on a cost to benefit basis, whether it would be feasible to correct the
deficiencies noted. OAS should then decide whether the corrections should be
performed by Commission personnel, or by technically competent contractor
personnel.




Review of PRISM Automated Procurement System Support Contracts       September 30, 2010
Report No. 486
                                              19
                                                                                         Appendix V


                          Management Comments


                                           MEMORANDUM
                                           September 24, 2010




      TO:           H. David Kotz
                    Inspector General

      FROM:         Sharon Sheehan      ~ ft ,J..
                    Associate Executive Director
                    Office of A d's7tiveS
                                        l E :.'es
                    Jeffery Heslop
                    ChiefOperating    cer and
                    Acting ChiefInfOrmation Officer

      SUBJECf:      OAS Management Response to Draft Report No.     486~   Review ofPRISM
                     Automated Procurement System Support Contracts


      This memorandum is in response to the Office of Inspector General's Draft Report No. 486,
      Review ofPRISMAutomated Procurement System Support Contracts. Thank you for the
      opportunity to review and respond to this report. OIT concurs with recommendation I, and OAS
      concurs with recommendations 1,2,4 and 5. OAS does not concur with recommendation 3. We
      have coordinated our response with the Office ofGeneral Counsel and have provided detailed
      response information for the findings and reco11UDendations presented in the report.




      Cc:    David Becker, OOC
             Diego Ruiz, ED
             Ken Johnson, CFO
             Kayla Gillan. OOC
             Julie Basile, OA
             Zayra Okrak, OFM
             George Eckard, OIT
             George Brown, OOC



                                                    1




Review of PRISM Automated Procurement System Support Contracts                       September 30, 2010
Report No. 486
                                                  20
                                                                                                     Appendix V

      Introduction



      Draft Audit Report 486 (Report) addresses the Office ofAcquisition's (OA) automation ofits
      procurement function, and states that the findings identified in the Report "raise concerns about
      the future success ofthe PRISM project." Management firmly believes that the PRISM project as
      a whole has been successful and will continue to succeed. The PRISM project will evolve and
      provide business process improvements as we fully implement the capabilities ofthe system
      PRISM is proving to be a successful tool for OA. This fiscal year 886 total contract actions were
      processed in PRISM representing $110.3 million.

      While the Report offers some helpful suggestions, we are concerned that the Report overall is
      inaccurate or reaches unsupported conclusions in a number ofrespects. Some ofthe findings in
      the Report are based on improper interpretation ofcomplex issues of contract practice govemed
      by the Federal Acquisition Regulation (FAR). We will provide references from the FAR and
      from a Government Accountability Office (GAO) decision regarding similar matters that
      demonstrate the SEC did not act improperly.

      The Report's assertion that the Office of Administrative Services (OAS) restricted competition is
      based on a misinterpretation of acquisition regulations, since including requirements the
      government deemed necessary fur perfonnance ofwork does not improperly restrict competition.
      The language ofthe solicitation was "the Contractor's employees shall have current (or within
      the past 30 days) SEC clearance to minimize the amount oftime to be on site and begin work."
      This permitted potential contractors to provide both employees who had active badges and
      employees who had a recently expired SEC clearance, to be proposed.

      The Report asserts that "OAS had already pre-selected a contractor approximately a week befure
      the solicitation W811 publicized." During market research on projects, agencies frequently identity
      potential offerors who should be able to perform the work. The filct that one ofthe six companies
      identified during the market research was ultimately the only offeror on the project was not a
      result ofpre-selection. Multiple companies often propose the same qualified individuals for
      government projects. Further, none ofthe 33 potential vendors who received a copy ofthe RFP
      complained that the security provision was improper.

      Recommendation 1:

      The Office of Information Technology (Om should review the adequacy of trained project
      officers that are available to manage all current and anticipated projects. If it is
      determined that sufficient qualified project officers are not available to manage all current
      and anticipated projects, orr should remedy the situation by either providing an adequate


                                                       2




Review of PRISM Automated Procurement System Support Contracts                                   September 30, 2010
Report No. 486
                                                           21
                                                                                              Appendix V



    number of qualified personnel, or implementing an alternative proeess for eosuring
    oversight of the projects.

    The Office of Infonnation Technology (OIT) concurs with this finding and recommendation. An
    independent consultant is assessing the OIT organization structure and staffing levels to ensure
    we are positioned to meet the technology needs ofthe SEC. The assessment will include the
    qualifications and assignment ofour project management staff. We will rely upon results ofthe
    assessment to staffour project management capability to the appropriate level and skill set. A
    significant portion ofnew positions allocated to OIT in FY 11 will be assigned as project
    managers.

    Recommendation 2:

    The Office of Administrative Services should issue guidance to staff on the proper use of
    restrictive clauses in solidtations and the prohibition on pre-selection, and require that
    appUcBble requirements in the Federal Acquisition Regulations are foUowed.

    OAS concurs with the recommendation to issue such guidance to staff. Management takes very
    seriously the obligation ofall contracting staff to adhere to the requiremerits ofthe FAR and
    conduct every procurement action with the utmost professionalism and integrity. This
    recommendation restates existing regulatory requirements, since such guidance is already present
    in the FAR, which contracting staff already are required to follow as part oftheir duties.

    We strongly disagree with the finding that competition was restricted inappropriately. The
    Report's statements in this finding do not align with the actual implementation ofthe
    Competition in Contracting Act (CICA) of 1984. As implemented in FAR part 6, which sets a
    standard of competition for federal contracts, competition standards do not require that the needs
    ofthe agency be abandoned in order to expand competition. The statement in this Report that
    OAS restricted competition is a misinterpretation ofacquisition regulations since including
    requirements the government deems necessary for performance ofthe work is appropriate.

    The GAO has found that the determination of a contracting agency's needs and the best method
    for accommodating them is a matter primarily within the agency's discretion. Generally, the mct
    that a requirement may be burdensome or even impossible for particular firms to meet does not
    make it objectionable ifthe requirement properly reflects the agency's needs.

    FederaI policy at FAR 11.002(a)(1)(ii) states that "agencies shall- (I) specify needs· • .... The
    determination of agency needs is within the reasonable discretion ofthe acquiring agency. Here
    the SEC had a reasonable basis to contract with vendors who could start work immediately. The
    Momentum Upgrade was scheduled to go live in August 2008. Because ofthe time line, it was


                                                    3




Review of PRISM Automated Procurement System Support Contracts                            September 30, 2010
Report No. 486
                                                     22
                                                                                             Appendix V


     important that we obtain onsite project support fur PRISM quickly. During the numerous
     planning meetings, OIT, OFM and OAS collectively understood that the Momentum Upgrade
     support contractors' stay onsite was limited. A delay in project start was a significant risk since
     the overlap with OFM contractors was key to a successful interface ofthe two sYstems, PRISM
     and Momentum.

     The work required access to sensitive SEC data and a security requirement was necessary fur
     such access. A reasonable method for meeting this requirement, given the time delays in
     obtaining security clearances,.was to require the presence ofa current or recent SEC security
     clearance.

     FAR 11.002 goes on to state that in specifying needs, agencies should be "using market
     research." Here, market research indicated that six contractors with the expertise and security
     clearances were avail.able to seek the w:ork set forth in the RFP. Given the availability ofmore
     than one source to satisfy the stated requirement, it is incorrect to state that the security clearance
     was restrictive. Even ifit were considered in some fashion restrictive (it did not appear so at the
     time based on market research), the FAR goes on to state in (a)(l)(ii) that such restrictions are
     permissible ''to the extent necessary to satisfy the needs of the agency" [emphasis added]. In
     this case, the SEC's requirement for a security clearance relates directly to potential offerors'
     ability or capacity to perform the contract and to have personnel enter the SEC work site and
     gain access to SEC computer systems, allowing them to begin work immediately upon award.
     The awardee was required to immediately attend meetings, interview and interact with
     government personnel as well as contractors supporting the upgrade to SEC's financial
     management system, Momentum. The contract generally supported all aspects ofimplementing
     the contract writing system and preparing to interface the two.

    The requirement for a security clearance in this solicitation falls within the category of a
    responsibility determination. One ofthe most fundamental principles of government contracting
    is that the government may contract only with "responsible sources." Determination of
    contractor responsibility is a business judgment made by the agency as to whether the contractor
    can or will perform the specific requirements the government has specified. As a result, the
    agency enjoys considerable discretion in making this decision. The requirement to assure that
    personnel held or could quickly obtain SEC clearance is appropriate in light ofrelevant FAR
    provisions that describe the elements bearing on determining that potential contractors are
    responsible sources. The term "responsible source" is defined by statute and implemented into
    regulation at FAR 9.104-1. FAR 9.104-1 (b), states the firm must "be able to comply with the
    required or proposed delivery or performance schedule" and 9.104-3(a), states the contracting
    officer "shall require aceeptable evidenee ofthe prospective contractor's ability to obtain
    required resources," and that evidence ''normally consists ofa commitment or explicit
    arrangement, that will be in existence at the time of contract award, to rent, purchase, or


                                                        4




Review of PRISM Automated Procurement System Support Contracts                           September 30, 2010
Report No. 486
                                                     23
                                                                                           Appendix V


     otherwise acquire the needed filcilities, equipment, other resources, or personnel [emphasis
     added]."

     The Report also quoted FAR 6.101, but improperly focused only on the first portion ofthe
     subpart, and failed to consider FAR 6.1 01 (b) oftbat same section which clearly shows agencies
     should use competitive procedures that "are best suited to the circumstances ofthe contract
     action and consistent with the need to fulfill the Government requirements efficiently."

     The Report states that in 2008 SEC was granting interim clearances to individuals within 7-10
     business days but no longer than 2-3 weeks, with final clearance in 90 days. Although these
     objectives were at times met during 2008, the office's perfonnance to this standard was very
     inconsistent Instead, these timeframes more accurately reflect the office's current standard of
     performance. The challenges fiIced by the SEC in processing background investigation at that
     time were cited in an inspection conducted by OIG itselfin March of 2008 (Background
     Investigations, Report No. 434). At that time, DIG showed that although the workload ofthe
     branch had significantly increased, the staff resources had not, resulting in a backlog of
     investigations amounting to hundreds ofcases. The Report stated, "Delays in processing
     background investigations and the lack ofadherence to relevant Federal requirements negatively
     impact the recruitment ofstaffand other temporary personnel, efficient use of contractors, and
     securit}' offederally controlled filcilities and Commission information systems." In addition,
     Report No. '434 referenced complaints by Commission officials ofsignificant delays with
     clearances. The office was also faced with a requirement to review existing employees and
     contractors with a deadline of October 27, 2008. Contrary to the Report, delays were still
     occurring at the time the contracts in question were formulated and awarded. Further, the process
     ofonboarding a contract employee involves additional time for employees to complete the
     background forms, obtain fingerprints, and process those forms through their company. Once
     approval is granted, the company must then negotiate a start date with the employees ,and the
     government.

     In an effort to assure broadest possible competition within the constraints ofthe needs ofthe
     SEC, the contracting officer properly submitted a combined solicitation/synopsis to Federal
     Business Opportunities web site in accordance with FAR 5.2. FAR 5.201 (c) establishes the
     purpose ofthe notice as ''to enhance competition by identifYing contracting and subcontracting
     opportunities." When a solicitation is issued, ifany potential offeror wishes to complain about
     the tenns ofthe solicitation as too restrictive, there are provisions in the FAR to do so. FAR
     33.l03(e) states that protests based on alleged improprieties in a solicitation must be filed before
     the closing date for receipt ofproposals. The SEC received no such protest Ifcompeting offerors
     had believed that the restriction was unnecessary to meet the schedule and requirements ofthe




                                                      5




Review of PRISM Automated Procurement System Support Contracts                         September 30, 2010
Report No. 486
                                                    24
                                                                                                                  Appendix V


    solicitation, each had a right to protest the SEC's inclusion ofthe requirement. However, none
    did so.

    The detennination ofa contracting agency's needs and the best method for accommodating them
    is a matter primarily within the agency's discretion. The GAO decided a similar case, in which
    prospective vendor protested a requirement that bidders have a security clearance at the.time of
    award, and suggested instead that bidders should be permitted 90 days to obtain the clearance. In
    that case, GAO upheld the government's position. The case decision is Computer Maintenance
    Operations Services, B-255530, Feb. 23,1994.

    The Report asserts that "OAS had already pre-selected a contractor approximately a week before .
    the solicitation was publicized." This statement is incorrect and a highly speculative inference
    from an email referenced in the Report by the auditors. The correspondence in question occurred
    during the market research phase ofthe procurement The auditors never discussed this email
    with its author concerning her intent.! During market research on projects, agencies :frequently
    identify potential offerors who are expected to be able to perform the work. In fact, the winning
    offeror was one ofsix firms identified as being capable of meeting requirements. The fact that
    one ofthe contractors identified by OFM during the initial market research was ultimately the
    only offeror on the project is not an indicator ofpre-selection. Anyone could propose who met
    the requirements, and it was the vendor(s) who decided whether to propose or not. A named
    individual need not be associated with a single contractor. It is common practice for competing
    firms to hire staff members who have experience with agency needs. In fact, often the same
    individual will appear as a key person on multiple contract proposals from different firms. Any
    firm wishing to submit a proposal could, in fact, have proposed and hired any SEC employee or
    SEC contractor who was qualified and cleared by SEC, or whose clearance had not been e:xpired
    more than 30 days. These proposals would have been considered.

    For the many reasons referenced above, OAS does not agree that this action is evidence that
    OAS management controls are inadequate to ensure adherence to competition requirements of
    the FAR or that there is evidence of ~selection. On the contrary, the fact that OAS attempted

    1 The Report makes much of the      contracting officer's use ofthe common abbreviation" ie.", the Latin abbreviation
    for id est (that is) instead of"e.g.", the Latin abbreviation for exempli gratkl (for example) in an email. In the email,
    she ·identifies the name ofa cleared individual who might be proposed for program work, who later came to work
    with the eventual successful ofBor. The Report, in our opinion, is highly speculative in concluding that the use of
    "i.e." indicated pn>selection, for all the reuons set forth above. Use of"ie." rather than "e.g." is a common
    gnunmatic:al error and in filct, is coDSidered one ofthe top ten errors seen in college level writing or tecbnical
    documents. Reference, e.g., http://www.mbatutes.comltop-5-most-common-english-grammar-errors. Further, the
    Contracting Officer was not in a position to unilaterally select the successful vendor. Evaluators would be involved
    in analyzing proposals and generally making li recommendation as to the most highly qualified technical offer, and
    be in a position to comment before any final aWllI'd decision was made. A contracting officer makes her own
    ultimate aWllI'd decision, but in doing so, she relies on the input from the evaluation staff'and, if she reaches a
    different decision, documents her views and why they difler from that ofher evaluation panel.


                                                                6




Review of PRISM Automated Procurement System Support Contracts                                               September 30, 2010
Report No. 486
                                                                25
                                                                                              Appendix V


    to find additional sources that could perfonn the work instead ofsimply entering into a sole
    source contract (which would have been far easier) is evidence that maximizing competition was
    a prime consideration for the OA contracting officer. In preparing this response, we discussed the
    issue and the email with the contracting officer and she stated she had no intent of pre-selection
    but in fuet used competitive procedures.

    Recommendation 3:

    To ensure duties are segregated, the Office of Administrative Services should implement
  . internal procedures to limit Contracting Officers from also assuming project management
    and CoJitracting Officer's Technical Representative's responsibilities on the same project.

    OAS does not concur with this recommendation. OMB Circular A-I 23 discusses the
    management control environment and proper segregation ofduties (sepanite personnel with
    authority to authorize a transaction, process the transaction, and review the transaction).
    Segregation ofduties does not restrict a contracting officer from performing contracting officer's
    technical representative (COTR) responsibilities. The contracting officer, who has those duties as
    an intrinsic part ofher contracting officer's responsibilities, delegates COTRs responsibilities.
    The contracting officer cannot delegate a responsibility she does not have. COTRs act for the
    contracting officer in certain situations and perform delegated duties as necessary to administer
    an assigned contract and support the contracting officer.

    A contracting officer has express authority to enter into, administer, and terminate contracts.
    According to SECR 10-15, the contracting officer has authority to determine what type of
    contract administration pOsition is needed for a contract and works with program officials (in this
    case OAS) to identifY appropriate employees for those contract administration positions; further,
    the contracting officer appoints/designates employees to contract administration positions in
    writing. The Report assumes that an individual other than the contracting officer would have
    been better qualified to perform the duties often delegated to a COTR. We do not agree. There is
    a dynamic balance between IT expertise and business process expertise when implementing IT
    projects that support business owners. The business process requirements were critically
    important when the system involved directly supported the acquisition business process. The
    SEC must manage risk, since it is impossible to eliminate it, and often an agency assigns the best
    available resource combining knowledge ofbusiness needs and IT requirements.

    As the business sponsor ofthe APS project, OA recognizes that assistance with project planning
    and coordination would have been highly desirable, and as OIT strengthens its staffing resources,
    we agree that we will use those resources more fully as they become available. However, both
    OA and OIT had insufficient personnel to support all projects as robustly as we might desire.
    Management agrees that the contracting officer did not have as much time to manage this project


                                                     7




Review of PRISM Automated Procurement System Support Contracts                            September 30, 2010
Report No. 486
                                                     26
                                                                                            Appendix V


    optimally, and OIT had insufficient personnel resources to fully support the effort. However, the
    business sponsor and acquisition subject matter experts needed to be substantially involved in the
    project to ensure ONs business needs were met. The Assistant Director for OA at the time had a
    significant role in the APS project. ht addition to his oversight and knowledge, he chaired the
    Executive Steering Committee, briefed the htfonnation Officer's Council (lOC) on a quarterly
    basis, met regularly with OIT, Office ofFinancial Management (OFM) and the contractors
    involved in the project, and spent roughly eight to twelve hours per week working on the APS
    project Management made the decision to optimize constrained resources by not delegating
    COTR duties whm inadequate staffing structures existed in both offices.

    The contracting officer oversaw performance and retained contract administration. This approach
    was appropriate because OIT had limited program management resources available. PRISM is a
    COTS product that is compliant with federal FSIO requirements, and is a tool that has been
    successfully implemmted in many federal agencies. Given resource constraints, management
    believes these were appropriate decisions given the conditions existing in 2008 when those
    decisions were made; Tom King and John Pezzullo, both OIT program/project managers,
    supported the APS project extensively by providing technical, CPIC, CMQA, and other IT
    expertise and support. Their input and guidance were critical in terms ofmanaging the technical
    requirements ofthe APS project. Some oftheir responsibilities in support ofthe April 2009
    Phase I rollout included system development life cycle (SDLe) processing CCBs,'labs,
    documents, certification and accreditation, vulnerability testing, mitigating Plans ofAction and
    Milestones (pOAM», technical advice, buying servers and equipment, setting up OIT required
    environments, completing data installations, processing CCBs through SDLC and "Authorities to
    Operate" issued after the certification and accreditation process.

    During implementation, there has been significant statutory and regulatory change, internal
    improvements within the SEC in both OA and OFM, and increasing focus on OMB A-123 and
    A-127. Staffoffices successfully worked together as a cross-functional team consisting of
    Federal subject matter experts and contractors in completing Phase I implementation ofPRISM
    in April 2009. Because ofthe team's efforts, OA for the first time has a contract writing tool, a
    tool that is improving the office's ability to more accurately manage contract activities and track
    contract actions. Although the integration project has been delayed, Management intends to seek
    an integrated solution as financial system solutions are implemented.

    Despite non-concurrence with this finding, OIT and OAS together will continue to work to
    strengthm the project management and COTR function at the SEC.

    Recommendation 4:

    The Office of Acquisitions should review existing contracts to ensure


                                                     8




Review of PRISM Automated Procurement System Support Contracts                          September 30, 2010
Report No. 486
                                                    27
                                                                                               Appendix V


  that Contracting Officer's Technical Representatives are assigned for each
  contract as appropriate.

  OAS concurs with this recommendation. While it is neither appropriate nor necessary to appoint
  a COTR. for all existing contracts - for instance, aged contracts pending closeout. closed out
  contracts that are being retained in accordance with records management policies, or certain
  contracts that are not technical in nature - OA has already begun an effort to review active
  contracts. The contracting officer will determine whether it is appropriate to appoint an
  Inspection and Acceptance Official or a COTR. to those active contracts.

  Recommendation 5:

  The Office of Administrative Services (OAS), in conjunction with the Office of Financial
  Managemen~should evaluate the reconciliation tool in order to determine, on a cost to
  benefit basis, whether it would be feasible to correct the deficiencies noted. OAS should
  then .decide whether the corrections should be performed by Commission personnel, or by
  technically competent contractor personnel.

  OAS concurs with this recommendation. OA and OFM have made a decision that it is not
  feasible to correct the deficiencies in the validation report. Subsequent to the IG's audit, the
  FMOC made a decision to go to a shared service provider for its financial management system.
  That and upgrades to PRISM required to accommodate new reporting requirements warrant
  deterring corrections to this report. This qualitative decision supersedes the need to conduct a
  cost benefit analysis since it is inappropriate to revise a reconciliation report for the two existing
  systems until the financial system is determined. We request this recommendation be closed.




Review of PRISM Automated Procurement System Support Contracts                             September 30, 2010
Report No. 486
                                                      28
                                                                      Appendix VI


      OIG Response to Management’s Comments

The Office of Inspector General is pleased that the Office of Administrative
Services (OAS) has concurred with recommendations no. 2, 4, and 5, but are
disappointed in OAS’s non-concurrence with recommendation no. 3. The
recommendation that OAS implement procedures to “limit” contracting officers
from assuming certain project management duties is a prudent and appropriate
step to take to ensure that Commission projects are managed more efficiently in
the future.

We are pleased that the Chief Operating Officer/Acting Chief Information Officer
concurred with recommendation no. 1, the only recommendation directed to the
Office of Information Technology. We believe that the independent consultant‘s
assessment will be useful to improve the vulnerabilities and areas of concern that
we identified in the audit.

We believe that if all of the recommendations in this report are fully implemented,
the Commission’s contract and procurement oversight will be significantly
improved.




Review of PRISM Automated Procurement System Support Contracts     September 30, 2010
Report No.486
                                              29
                                                                     Appendix VI


                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at:

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
